                             Office of the Inspector General
                    Corporation for National and Community Service




                          Pre-Audit Survey Report of the
                     Michigan Community Service Commission


                           OIG Audit Report Number 00-25
                                 January 21,2000




                                          Prepared by:
                                   ljrbach Kahn & Werlin, PC
                                   1030 Fifteenth Street, N.W.
                                     Washington, D.C. 20005

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                     Contract # 5-943-8-0024
                                     Task Order B9G9X103



This report was issued to Corporation management on July 12, 2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
January 8,2001, and complete its corrective actions by July 12,2001. Consequently, the
reported findings do not necessarily represent the final resolution of the issues
presented.
                                 Office of Inspector General                             CORPORATION
                       Corporation for National and Community Service                    FOR NATIONAL


                               Pre-Audit Survey Report of the
                           Michigan Community Service Commission
                               OIG Audit Report Number 00-25

OIG Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordancewith the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including ArneriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged Urbach Kahn & Werlin, PC, to perform the pre-audit survey of the Michigan
Community Service Commission. Based on the limited survey procedures performed, DKW
concluded that the Commission appears to have an adequate pre-award selection process and
adequate controls to provide reasonable assurance that training and technical assistance is made
available to subgrantees. However, UKWconcluded that the Commission lacked adequate controls
overfiscal administration ofgrants and to evaluate and monitorsubgrantees. Their report includes
recommendations for improvements by the Commission, oversight of their corrective actions by the
Corporation for National Service, and a full-scope Jinancial audit of the Commission for 1995
through the current program year.

                                                                                      Inspector General
                                                                                      1201 New York Avenue, NW
                                                                                      Washington, DC 20.525
We have reviewed the report and work papers supporting its conclusions. We agree with the
findings and recommendations presented.

Responses to the report by the Michigan Commission and the Corporation for National Service are
included as appendices C and D, respectively. The Corporation's response indicates that it will
require semiannual reports on the Commission's corrective actions. However, in its response, the
Michigan Commission disagrees with a number of the report's findings and recommendations.
UKW's evaluation of Commission's response is included as appendix E.

Notwithstanding this evaluation, however, the initial paragraph of the Commission's response also
includes two statements that require further comment. First, the Commission states that it believes
that the purpose of the pre-audit survey was to be a learning tool for state commissions and CNS.
This is incorrect. OIG's September 24, 1999 pre-audit survey notification letter to the Michigan
Commission stated that the emphasis of this survey will be to make a preliminary assessment of the
fiscal procedures and internal controls at the Commission; the effectiveness of its monitoring of
AmeriCorps State subgrantees and ArneriCorps Member service hours; the pre-award selection
process; the use of training and technical assistance funds; and grant compliance.

Second, the Commission's response goes on to state, ". . .based on our experiences with the pre-audit
process and the draft report, it appears that this pre-audit survey was by all standards, an audit and
should be subject to the standards, rules and regulations of the A-133 process." CNS OIG does not
classify the survey as an audit. It was designed to gather information on the extent of existing audit
coverage for the Commission and its subgrantees, to assess the Commission's systems and
management controls as described above, and to assess risk. The intent was to gather information
on which to base future OIG audit work. Moreover, the requirements of OMB Circular A-133
Audits of States, Local Governments, and Non-Profit Organizations, do not apply directly to this
OIG survey.' This survey was performed under the performance audit standards of Government
Audit Standards issued by the Comptroller General of the United States as described in the
Objectives, Scope and Methodology Section of the report and in Appendix A.



 Nonetheless, the pre-audit survey design considers the requirements of the Single Audit Act and OMB Circular A- 133.
In compliance with the intent of the Single Audit Act and the requirements of the Circular, we perform procedures
designed to determine the extent of audit coverage for the state commission and its subgrantees as well as the use of A-
133 audit reports by the Commissions. The information gathered allows CNS OIG to determine the extent of audit work
required, and to build on any audit work already performed at the state commissions and at subgrantees to avoid audit
overload.

It is also important to note that CNS OIG authority to perform the surveys and subsequent audits is not limited by the
Single Audit Act or Circular A-133's requirements. Circular A-133, Subpart B, Section 215 (a) provides

         (a) Audit under this part in lieu ofother audits. An audit made in accordance with this part shall be
         in lieu of anyfinancial audit required under individual Federal awards. To the extent this audit meets
         a Federal agency's needs, it shall rely upon and use such audits. The provisions of this part neither
         limit the authority of Federal agencies, including their Inspectors General, or GAO to conduct or
         arrangefor additional audits (e.g.,Jinancial audits, performance audits, evaluations, inspections, or
         reviews) nor authorize any auditee to constrain Federal agenciesfrom carrying out additional audits.
         Any additional audits shall be planned in such a way as to build upon work performed by other
         auditors.
                                     Office of the Inspector General
                             Corporation for National and Community Service

                                        Pre-Audit Survey Report of the
                                   Michigan Community Service Commission


                                                        Table of Contents


Pre-Audit Survey Report

  Results in Brief ...........................................................................................................................
                                                                                                                                            1

  Background .................................................................................................................................   2

  Overview of the Michigan Commission ....................................................................................                       3

  Objectives. Scope and Methodology .......................................................................................... 4

  Findings and Recommendations ................................................................................................. 5


Appendices

  Appendix A Michigan Commission Funding
                      .                                                    .   1995 through 1999 .....................................11

  Appendix B .Detailed Engagement Objectives and Methodology .........................................16

  Appendix C .Michigan Commission Response .......................................................................
                                                                                                               19

  Appendix D - Corporation Response ........................................................................................
                                                                                                                         26

  Appendix E - UKW's Evaluation of Michigan's Response ................................................
                                                                                                     27
UK Urbach Kahn & Werlin PC
6NV   CERTIFIED PUBLIC ACCOUNTANTS




        Inspector General
        Corporation for National and Community Service

        At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the Michigan
        Community Service Commission. The primary purpose of this survey was to provide a
        preliminary assessment of:

               the adequacy of the pre-award selection process;

               the fiscal procedures at the Commission;

               the effectiveness of monitoring Michigan State subgrantees, including Amencorps
               Member activities and service hours; and

               the controls over the provision of training and technical assistance.

        We were also asked to report on the recommended scope of additional audit procedures to be
        performed at the Michigan Commission.

        RES ULTS IN BRIEF

        Based on the results of the limited procedures performed, we have made the following
        preliminary assessments regarding the Commission's systems for administering grants
        received from the Corporation.

           The Commission appears to have an open and competitive process to select national
           service subgrantees, and the related systems and controls appear to be functioning as
           designed. However, we did identify an area for improvement related to the lack of
           assessment of subgrantee applicants' Financial Systems during the selection process.

           The Commission does not have an adequate process in place for the fiscal administration
           of grants.

           The Commission does not have adequate controls in place to evaluate and monitor
           subgrantees.

           The Commission appears to have adequate controls in place to provide reasonable
           assurance that training and technical assistance are made available and provided to
           subgrantees.




                                                                  -1-
                      1030 Fifteenth Street NW, Washington, DC 20005 (202) 296-2020 FAX (202) 223-8488
                                    A n Independent Member of Urbach Hacker Young International
Based on our preliminary assessments, we recommend that the OIG perform a full-scope
financial audit of the funds awarded to the Michigan Commission for 1995 through the
current program year. Procedures should also include verification of reported Member
service hours and matching amounts by subgrantees.

In addition, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put in place to address the conditions reported herein
and that the Corporation consider these conditions in its oversight and monitoring of the
Michigan Commission.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, AmeriCorps Members perform service to meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps
State/National funds to State Commissions. State Commissions are required to include
between 15 and 25 voting members. Each Commission has a responsibility to develop and
communicate a vision and ethic of service throughout the State.

The State Commissions provide AmeriCorps funding to approved subgrantees for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to AmeriCorps State and National Direct
programs and to the broader network of service programs throughout the state. The
Commissions are prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must
be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities, as well
as provide effective control and accountability for all grant and subgrant cash, real and
personal property, and other assets.
0 VERVIEW OF THE MICHIGAN COMMISSION

The Michigan Community Service Commission is headquartered in Lansing, Michigan. The
Commission has been providing national and community service programs in its current form
since 1995. The Commission reported that it received funding from the Corporation totaling
$2,780,225 in 1995; $3,492,642 in 1996; $3,956,728 in 1997; $4,529,222 in 1998; and
$4,683,631 in 1999. Additional information on the Commission's funding is presented in
Appendix A.

The Commission currently has thirteen full-time staff consisting of an Executive Director,
three Directors of Programs, Finance & Administration; and Outreach; four department
analysts and five administrative support staff. The Michigan Job Commission provides fiscal
oversight to the Commission.

As part of the State of Michigan, the Commission is included in the state's annual OMB
Circular A-133 audit. The ArneriCorps Program was considered a major program for the year
ended September 30, 1998. The following two findings were identified related to the
administration of the program: The Michigan Jobs Commission's internal control structure
did not ensure that required quarterly FSRs were submitted to the Corporation on a timely
basis, and MJC's internal control structure did not ensure that FSRs were received from all
program subrecipients.

The Commission provided the following information regarding subgrantee A-1 33 audits:

                  Total Amount of                                  Number of
                    Corporation                                Subgrantees Subject
                       Funds             Number of               To A-133 Audit
Program Year        Sub~ranted          Subgrantees              Requirements




Determination of the number of subgrantees subject to OMB Circular A-133 audit
requirements is based on information received from the Commission and the dollar value of
federal awards passed through the Commission during the program year. Other subgrantees
could be subject to an OMB Circular A-133 audit if additional federal funds were received
from other sources during the program year.
OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service to provide a preliminary assessment of the systems and procedures in
place at the Commission for administering grants and for monitoring the fiscal activity of
subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of Michigan State subgrantees, including ArneriCorps
       Member activities and service hours; and

       the controls over the provision of training and technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant
       agreements for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant funding for program years 1995
       through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       funds, evaluation and monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in
place at the Commission using inquiry, observation, and examination of a sample of source
documents. Finally, we summarized our observations and developed the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on January 2 1,2000.
Our procedures were performed in accordance with Government Auditing Standards issued
by the Comptroller General of the United States. We were not engaged to, and did not,
perform an audit of any financial statements, and the procedures described above are not
sufficient to express an opinion on the controls at the Commission or its compliance with
applicable laws, regulations, contracts and grants. Accordingly, we do not express an opinion
on any such financial statements or on the Commission's controls and compliance. Had we
performed additional procedures, other matters might have come to our attention that would
have been reported to you.

We provided a draft of this report to the Michigan Commission and the Corporation for
National and Community Service. The Commission's and the Corporation's responses to our
findings and recommendations are included as Appendix C and Appendix D, respectively.

FINDINGS AND RECOMMENDATIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members,
Section 3.2, "Commissions are expected to develop a fair and impartial process for reviewing
and selecting applicants for potential funding." The Michigan Commission has developed
various procedures to comply with this requirement. Commission procedures indicate that the
Commission advertises the availability of funds by sending postcards to all applicants
maintained in a Commission database, and advertisements on the Commission's web-site,
and in Crane's Non-Profit Newsletter. A technical assistance conference call is then held to
discuss application and Corporation guidelines. Interested applicants attend a face-to-face
meeting with the Director of Programs to discuss fund management.

New applicants complete Intent to Apply forms, which provide limited information on the
program: including number of potential members, program objectives, and specific
information relating to the key contact person.

The Review Panel reviews each Intent to Apply form and completes peer review and team
ranking sheets. Commission personnel categorize the forms according to recommendations
and evaluate each applicant's strengths and weaknesses. Approved applicants then attend a
one-day technical assistance session to gain information relating to the required
comprehensive AmeriCorps applications.

Commission personnel review the AmeriCorps applications, as well as evaluate the financial
systems in place at each subgrantee and results of recent audits. At the conclusion of the
review, the Commission compiles their recommendations and submits them to the
Corporation.
For renewal applicants, the Commission reviews quarterly progress reports, proposals for the
future, as well as, the budget submission for the upcoming year.

While we believe the documentation maintained by the Commission to support the selection
process is adequate, we have identified the following areas for improvement.

           Lack of documentation to support the review of certain information
                             during the renewal process.

The Commission did not document its review of quarterly progress reports and site visit
reports during the renewal process of two subgrantees. Therefore, we were unable to
determine whether the Commission reviewed these reports during the renewal of subgrantees.

We recommend that the Commission re-enforce current policies and procedures which
require the review of these reports during the renewal of subgrantees.

             Lack of assessment of subgrantee applicants' Financial Systems
                              during the selection process

According to A Reference Manual for Commission Executive Directors and Members,
Section 4.2, Commissions are responsible for maintaining "appropriate financial management
systems to disburse funds and track Commission and program expenditures according to
legal and grant requirements." In order to comply with this requirement, the Commission
must be able to ensure that subgrantees have systems in place to accurately track
expenditures, since this information forms the basis of a majority of the Commission's
expenditure reporting.

During our testing, we determined that selection officials do not consider the adequacy of the
applicants' financial systems during the Commission's subgrantee selection process. The
grant application form provided by the Corporation does not specifically address the
applicant's financial systems. In addition, Commission selection procedures do not require
that Commission personnel request information from the applicants related to their financial
systems or to otherwise assess an applicants' financial system. As a result, grant funds may
be provided to an organization that does not have financial systems in place to properly
account for the Corporation funds received or to ensure compliance with related
requirements.

We recommend the Commission evaluate and document the adequacy of the applicants'
financial systems during the selection process to ensure that applicants have systems in place
to properly account for grant funds and comply with related grant requirements.
Administration of Grant Funds

As part of the grant administration process, "Commissions must evaluate whether
subgrantees comply with legal, reporting, financial management and grant requirements and
ensure follow through on issues of non-compliance" (A Reference Manual for Commission
Executive Directors and Members, Section 4.3). Based on the results of our testing, we
identified the following areas for improvement related to the evaluation of subgrantee
compliance with reporting and grant requirements.

              Lack of evidence of Financial Status Report review, including
                matching recalculation, prior to the 1999 program year.

Commission procedures require that subgrantee Financial Status Reports be reviewed, and
matching requirements, recalculated. However, no evidence exists to document that this
review was performed, prior to the 1999 program year. In addition, our testing of 15
subgrantees identified the following deficiencies:

       Fifteen instances where we were unable to determine whether the match was
       re-calculated by the Commission; and
       Several instances where FSRs submitted by subgrantees were not accurately prepared
       or completed.

We also determined that Commission personnel do not compare the FSRs to the subgrantees'
accounting records or other supporting documentation during site visits.

Because of these conditions, errors on the FSRs may occur and remain undetected. Although
all subgrantees are on a reimbursement only basis, if subgrantee FSRs are not agreed to the
subgrantees' accounting system, then there is an increased risk that subgrantees are
incorrectly reporting amounts on their FSRs and the Commission lacks reasonable assurance
that subgrantees are correctly reporting amounts on their FSRs.

We recommend the Commission continue to enforce current procedures which require the
review of subgrantee FSRs, recalculation of matching requirements and documentation to
support the results of this review. Also, the Commission should implement site visit
monitoring procedures that require the reconciliation of the subgrantees' FSRs to the
subgrantees' accounting records along with other supporting documentation (e.g. invoices).

                       Late submission of Financial Status Reports

ArneriCorps Provision 17 (i) states "AmeriCorps State programs and most AmeriCorps
National sites that receive subgrants must submit at least four Financial Status Reports (SF
269 a) to their respective State Commission or Parent Organization." It continues to state
"State Commissions and Parent Organizations are required to forward Financial Status
Reports fiom programs and budgeted sites to the Corporation's Grants Office 30 days after
the close of each calendar quarter."

Our testing identified four instances where subgrantees did not submit FSRs to the
Commission timely and in accordance with Corporation guidelines.

We recommend that the Commission enforce current policies and procedures requiring the
submission of FSRs in accordance with Corporation guidelines.

                Inability to determine the timeliness of the receipt of FSRs

The Commission does not routinely date-stamp FSR reports fiom subgrantees as they are
received. Thus, the Commission can not routinely verify if these documents are submitted
timely in compliance with the grant agreement.

During November and December 1998, the Commission began using the Web Based
Reporting System which electronically records the date subgrantees submit their FSRs to the
Commission. As a result, no recommendation is required at this time related to recording the
date of the receipt of FSRs.

                   The Commission did not maintain all required FSRs.

ArneriCorps Provision #17 states "Commissions and Parent Organizations are required to
submit quarterly Financial Status Reports and three Progress Reports to the Corporation.
Commissions and Parent Organizations must submit these reports by the following dates and
include three copies along with the original." It continues to state "AmeriCorps State
programs and most AmeriCorps National sites that receive subgrants must submit at least
four Financial Status Reports to their respective Commission or Parent Organization. In
general, if a site has a Corporation-approved budget then the submission of an FSR for that
sitelsub-Grantee is required. Commissions/Parent Organizations are required to forward
Financial Status Reports from programs and budgeted sites to the Corporation's Grants
Office 30 days after the close of each calendar quarter. Annual Financial Reports shall be
submitted within 90 days of completion and will compare actual expenditures to budgeted
amounts using the line item categories in the grant budget form."

During our testing of 15 FSRs, we identified three instances where FSRs were not maintained
in the Commission subgrantee files. Our testing also identified six instances where we could
not verify amounts reported to the Corporation by the Commission due to inadequate
supporting documentation. Because of these missing FSRs, we were unable to determine the
accuracy of prior quarter amounts reported (or carried forward) on FSRs submitted to the
Michigan Commission by subgrantees, as well as the accuracy of FSRs submitted by the
Commission to the Corporation.
We recommend that the Commission reemphasize the requirement that all FSRs submitted
by subgrantees, as well as FSRs, and supporting documentation, submitted by the
Commission to the Corporation, be maintained and available for review.

            The Commission could not provide the dollar amount of the match
                            for the administrative grant.

As noted in Appendix A, the Commission was unable to provide us with the dollar amount of
the match for the administrative grant during 1995, 1996 and 1997. Commission personnel
stated that awards during the first three years were not reported with match amounts since the
grant award letter did not require it.

However, the Commission was able to provide the dollar amounts of the match during 1998
and 1999 grant years. As a result, no recommendation is required at this time related to the
dollar amounts of matches for administrative grants.

Evaluating and Monitoring Grants

As discussed above, the Commission is responsible for evaluating whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensuring
corrective action when noncompliance is found.

We identified the following area for improvement related to the evaluation and monitoring of
subgrantees.

             The evaluating and monitoring system for subgrantees needs to be
                              improved at the Commission.

According to OMB Circular No. A-133, Audit of States, Local Governments, and Non-Projt
Organizations, as amended, Subpart D tj 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
for authorized purposes in compliance with laws, regulations, and the provisions of contracts
or grant agreements and that performance goals are achieved."

The Commission procedures call for site visits at least twice a year. However, during our
review of monitoring files for subgrantees, we determined that certain information was
excluded from the site visit documentation. Specifically, the names of the Member files
reviewed, identification of Member files where exceptions were identified, and the
procedures followed to select the Members reviewed were not included. Commission
personnel also do not verifL reported Member service hours to timesheets or other supporting
documentation.
We also determined that the following information was not consistently maintained in the
monitoring files:

   Findings and recommendations identified during site visits;
   Resolution and follow-up on identified findings; and
   Progress reports.

Since comments included on the checklists were general in nature, we were unable to
reperform procedures performed by Michigan Commission personnel.

We recommend that the Commission revise its policies and procedures requiring specific
information be included in the documentation for site visits (for example, sample sizes,
exceptions, recommendations, and follow up on findings and recommendations). This will
allow the Corporation to assess the Commission's oversight of subgrantees when it performs
its planned Commission administrative reviews.

In addition, we recommend that the Corporation for National and Community Service revise
its guidance to specify minimum procedures to be performed, as well as minimum
documentation requirements.

Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its
subgrantees. Procedures are in place at the Commission to (1) identify training needs of
subgrantees through periodic staff meetings with the program directors and a needs
assessment survey; (2) notify subgrantees of training programs; and (3) provide needed
training to subgrantees. We identified no significant areas for improvement within this
process.




This report is intended solely for the information and use of the Office of the Inspector
General, management of the Corporation for National and Community Service, the Michigan
Community Service Commission, and the United States Congress and is not intended to be
and should not be used by anyone other than these specified parties.




Washington, DC
January 2 1,2000
APPENDIX A - MICHIGAN COMMISSION FUNDING




                                               CORPORATION FOR NATIONAL SERVICE
                                            FUNDING TO THE MICHIGAN STATE COMMISSION
                                                               1995



                 1
         AMERIC~RPS
                                             1
                                     AMERICORPS
                                                                      1
                                                                    L&S
                                                                                        1
                                                                                       PDAT           ADMINISTRATION
       FORMULA FUNDS.                COMPETITIVE                   FUNDS              FUNDS              FUNDS:**
          $1,861,910                    FUNDS                     $124.883            $65,000            $386,395
                                       $342,037

            MATCH.                       MATCH                    MATCH                 NO                MATCH.
           $1,153,697                   $339,884                  $93,735             MATCH                 $'
                                                                                     REQUIRED     .




                                I         TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION             I


                                                                     t
                                                    FUNDS AWARDED TO SUBGRANTEES
                                                              $2,168,321




                                      FORMULA.                  COMPETITIVE
                                      $1,732,901                  $310,537

                                        MATCH                       MATCH              MATCH
                                      $1,153,697                   $339.884            $93,735

                                     TOTAL # OF                  TOTAL # OF          TOTAL # OF
                                       SUBS:                       SUBS-               SUBS-
                                         8                                                8

                                     TOTAL # OF                                      TOTAL # OF
                                       SITES-                                          SITES
                                         33




Total Carryovers for 1995 (Not included in the current year fundlng amounts above)
Adminlstration      $ 71,151 .OO
Amer~Corps-


*    Information not received from the Commission
"   Disability funds included in grant award
APPENDIX A                  - MICHIGAN COMMISSION FUNDING




                                                         CORPORATION FOR NATIONAL SERVICE
                                                      FUNDING TO THE MICHIGAN STATE COMMISSION
                                                                        1996




           FORMULA                                                                           FUNDS
                                                                                             $80,000           $402,911
            FUNDS.                        FUNDS                      $126,890
           $2,271,964                     $610,877

                                                                                                               MATCH.
            MATCH                         MATCH                      MATCH
           $1,649,333                     $458,384                   $109,047                MATCH




                                                      TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                       $3,492,642




                                                            FUNDS AWARDED TO SUBGRANTEES
                                                                      $3,009,517


                                                  I                   .c                         L
                                                                       AMERICORPS                LBS
                                                                       COMPETITIVE                  $126,890
                                                                         $610,877

                                              MATCH                        MATCH                    MATCH
                                             $1,649,333                   $458,384                  $109,047

                                                                        TOTAL # OF               TOTAL # OF
                                                                          SUBS-                    SUBS'
                                                                              2                        8

                                             TOTAL #                     TOTAL #                    TOTAL #
                                             OF SITES                    OF SITES-                  OF SITES
                                                61                          21                         8




  Total Carryovers for 1996 (Not included In the current year funding amounts above)

    PDAT.               $   57,482 00
    AmeriCorps:       $ 166,013 00
  Adminlstratlon      $ 100,000 00

  *     Information not r e c e ~ e dfrom the Commiss~on
  *'   D l s a b i l i funds included In grant award
APPENDIX A              - MICHIGAN COMMISSION FUNDING




                                                CORPORATION FOR NATIONAL SERVICE
                                             FUNDING TO THE MICHIGAN STATE COMMISSION
                                                                1997
                 I                           I

     I
     1
         AMERICORPS
       FORMULA FUNDS
           $2,836,926
                                      COMPETITIVE
                                         FUNDS.
                                                                                         PDAT
                                                                                        FUNDS.
                                                                                       $100,795         I   FUNDS "
                                                                                                            $320,586
                                        $549,502

            MATCH
           $1,800,007
                                         MATCH
                                        $506,704
                                                        I                                               I   MATCH




                                          TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                           $3,956,728




                                 I                 FUNDS AWARDED TO SUBGRANTEES
                                                             $3,562,830
                                                                                                    I
                                        FORMULA,                 COMPETITIVE
                                        $2,805,304                 $608,607

                                                                   MATCH                 MATCH
                                                                   $506,704             $158,558

                                     TOTAL # OF SUBS                                   TOTAL # OF
                                                                                         SUBS
                                                                                           11




                                                             I
                                                              TOTAL # OF SITES
                                                                                       TOTAL # OF
                                                                                         SITES'
                                                                       22                  11




 Total Carryovers for 1997 (Not included in the current year fundlng amounts above):

     PDAT         $       20,000
  Amencorps-      $      107,676
  Adrn~nistration $       90,000


      lnformatlon not received from the Comm~ssion
 "   Disability funds Included In grant award
APPENDIX A - MICHIGAN COMMISSION FUNDING




                                                   CORPORATION FOR NATIONAL SERVICE
                                                FUNDING TO THE MICHIGAN STATE COMMISSION
                                                                  1998
                                                                       I                     I                          I
                                   A
                                   AMERICORPS
                                           COMPETITIVE
                                                                   &,
                                                                   FUNDS "'
                                                                                     V   D
                                                                                          FUNDS
                                                                                                G      ,   ,A,ADMINISTRATION
                                                                                                                 FUNDS-"
           FUNDS.                            FUNDS-                $1 15,499             $140,000                $324,052
          $2,595,008                        $1,354,663

           MATCH                             MATCH                  MATCH                  NO                     MATCH.
          $2,011,156                        $1,082,880             $130,037               MATCH                   $381,831
                                   I                                             I I     REQUIRED



                                                v                     t
                                              TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $4,529,222




                                                         FUNDS AWARDED TO SUBGRANTEES
                                                                   $4,140,892




                                           AMERICORPS
                                            FORMULA              COMPETITIVE               $115,499
                                            $2,595,008            $1,430,385

                                             MATCH                  MATCH                    MATCH'
                                            $2,011,156             $1,082,880               $130,037

                                       I    TOTAL# OF
                                              SUBS:
                                                                  TOTAL # OF
                                                                    SUBS
                                                                                          TOTAL # OF
                                                                                            SUBS:
                                                                      5                       7




                                       1    TOTAL # OF
                                              SITES-
                                               106
                                                                  TOTAL # OF
                                                                    SITES'
                                                                      44
                                                                                          TOTAL # OF
                                                                                            SITES-
                                                                                               7




Total Carryovers for 1998 (Not included In the current year funding amounts above)

  PDAT.             $     30,000
  AmeriCorps        $     75,722




 " D~sabilityfunds Included In grant award
    Learn & Serve amount represents funds from 1997 A no cost extension was awarded for the 1998 program year and the
    funds were used to renew the subgrantee from the prior year.
APPENDIX A - MICHIGAN COMMISSION FUNDING




                                                     CORPORATION FOR NATIONAL SERVICE
                                                  FUNDING TO THE MICHIGAN STATE COMMISSION
                                                                          1999




                         I I                                                                     AL
                                                                                                 ADMINISTRATION

        F

               "--
       $7 5 7 ~~ R R
                                 COMPETITIVE
                                   FUNDS
                                   - . .-" =,an
                                  ~1 , ~ 7,---
                                            n
                                                  1 1      FUNDS
                                                           $135,527       1          FUNDS
                                                                                    $1 20,000
                                                                                                    FUNDS *'
                                                                                                    $381.309
                                                                                                                    FELLOWSHIP
                                                                                                                      FUNDS.
                                                                                                                      $78,117

         MATCH                        MATCH.               MATCH                                    MATCH.            MATCH
       $1,555,638                 $1,041,532               $21 1,530                 MATCH          $477,594         $144,950
   -


                                           v                   v                                      1
                                                TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                       $4,683,631




                                       I                FUNDS AWARDED TO SUBGRANTEES
                                                                       $4,182,322                         I
                                                                                                   ,


                                                    ;
                                                                              A
                     I       AMERICORPS              AMERICORPS               L & S.                   PROMISE
                              FORMULA.               COMPETITIVE,                    $135,527         FELLOWSHIP
                              $2,538,088                $1,430,590                                      $78,117

                               MATCH                     MATCH                       MATCH.              MATCH.
                              $1,555,638                $1,041,532                   $211,530           $1 44,950

                                                        TOTAL # OF                  TOTAL # OF        TOTAL # OF


                     1          SUBS:
                                 l5
                                                          SUBS-


                                                        TOTAL # OF
                                                                                      SUBS:
                                                                                        10

                                                                                    TOTAL # OF
                                                                                                        SUBS.
                                                                                                               7

                                                                                                       TOTAL # OF
                             TOTAL # OF
                               SITES                      SITES-                      SITES,             SITES-
                                                                                        10                 8




   Total Carryovers for 1999 (Not mcluded In the current year funding amounts above)

   Adm~nistrat~on        $     145,549



   " Disability funds Included in grant award
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and ( 3 ) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to assess
the Commission's internal controls surrounding the following items, to ensure compliance
with Part 6 of A-133, Internal Control of the Compliance Supplement to OMB Circular A-
133, Audits of States, Local Governments, and Non-Profit Organizations: overall control
environment; activities allowed or unallowed and allowable costs; cash management;
eligibility; equipment and real property management; matching; period of availability of
Corporation funds; procurement and suspension; debarment; program income; and reporting
by the Commission to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually, and maintained by the Commission.
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Administering the Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support the oversight of subgrantees and their required reporting
       to the Corporation (including Financial Status reports, enrollment and exit forms);
       and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We
also determined whether the Commission has implemented the Web Based Reporting
System.

Evaluating and Monitoring Grants

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those goveming eligibility
       of Members, service hour reporting, prohibited activities, payment of living
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are reported and
       compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to preliminarily assess the adequacy of the procedures
performed by the Commission to assess financial and programmatic compliance and related
controls at the sites. We also determined whether the Commission received and reviewed A-
133 audit reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether training and technical assistance is
       provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities, which were made available to all
subgrantees.
APPENDIX C            - MICHIGAN COMMISSION RESPONSE


                                                  STATE OF MICHIGAN




                                              JOHN ENGLER. Governor

                              MICHIGAN COMMUNITY SERVICE COMMISSION
Chairperson                                                                                          111 S. Capitol Ave.
Michelle Engler                                                                       George W. Romney Bldg., 4th Floor
                                                                                                Lansing, Mich~gan48913
 Executive Director                                                                           Telephone (517) 335-4295
 Kyle Caldwell                                                                                      FAX (517) 373-4977




           June 1,2000




           Ms. Luise Jordan, Inspector General
           Corporation for National Service
           1201 New York Avenue, NW
           Washington, D.C. 20525

           Re: Drafl Report of the Pre-Audit Survey of the Michigan Community Service Commission.

           Dear Ms. Jordan:

           The Michigan Community Service Commission (MCSC) and the Lntemal Auditor from the
           Michigan Department of Career Development (MDCD) have reviewed the draft report of the
           Pre-Audit S w e y referenced above and disagree with two statements outlined in the Results in
           Brief in the Pre-Audit Survey Report of the Michigan Community Service Commission and
           contest the overall pre-audit survey process. It was our understanding that a pre-audit survey was
           to be a leaming tool for state commissions and the Corporation for National Service (CNS) and
           used to help find systems and procedures that may need to be strengthened. In fact, at the
           entrance meeting, the auditors from Urbach, Kahn and Werlin P.C. stated that this process was to
           find common areas of weakness from the commissions across the nation for CNS to develop
           training for the grantees and state commissions. However, based upon our experiences with the
           pre-audit survey process and the draft report, it appears that this pre-audit survey was by all
           standards, an audit and should be subject to all the standards, rules and regulations of the A-133
           Single Audit Act.

           One of the large areas of concern that the MCSC has with the pre-audit survey was the brief time
           the auditors spent on site. The auditors from Urbach, Kahn and Werlin P.C. were on site for
           fewer than three full days. It is difficult to understand how a fmn would be able to review a six-
           year period involving five funding sources in only three days. This is especially troubling as the
           Office of Auditor General for the State of Michigan took more than one full month to perform a
           two-year audit limited to our Michigan's AmeriCorps program. The MCSC feels that many of
APPENDIX C - MICHIGAN COMMISSION RESPONSE




     Page 2
     Ms. Luise Jordan
     Draft Report of the Pre-Audit Survey of the Michgan Community Service Commission

     the broad and unfounded findings noted in the draft report could have been addressed during the
     pre-audit survey visit had representatives from Urbach, Kahn and Werlin P.C. taken sufficient
     time to obtain the documentation requested.

     Brief Response to "Results in Brief from the Pre-Audit Survey Report of the Michigan
     Community Service Commission (Pagel):

     The MCSC was surprised to find the statement in the drafl report stating that we do not have
     adequate controls in place for the fiscal administration of grants nor have adequate controls in
     place to evaluate and monitor subgrantees. T h s item was not discussed in either the exit meeting
     or in the pre-audit survey report finding letters. In fact, many if not all of the minor findings in
     the report are based on documents that are more than three years old.

     That leads to a second area of concern involving the broad, inaccurate and exaggerated wording
     of the pre-audit survey findings. Page 1 refers to the fiscal and monitoring systems being
     inadequate while the evidence used to support these statements is from several years past. These
     findings do not represent the effectiveness and integrity of the MCSC's current systems. The
     auditors noted that MCSC's systems are currently adequate in their exit interview, but neglected
     to include that information in the written report. This response includes evidence of this
     disparity which should be noted in the final report.

      The specific responses to items made in the draft:

      Page 1 "The Commission does not have an adequate process in place for the fiscal
             administration of grants.

               This issue was not discussed during the on site review, the exit conference on
               January 21, 2000, nor in the follow up conversations and the Audit Survey -
               Preliminary Findings letters that the MCSC received and to which the MCSC provided
               a written response (Attachment A).

               The MCSC just completed an extensive major audit of its Amencorps program for the
               fiscal years 1996-1997 and 1997-1998 conducted by the State of Michigan Department
               of Auditor General. During this audit, there were no major findings and the audit did
               not identify any fiscal management inadequacies in the administration of grants. The
               MCSC's systems, controls, and procedures are largely based upon similar systems in
               place at the Department of Career Development's Office of Workforce Development.
               These systems have been in place for many years and in addition, the MCSC is located
               in a major state department that has experience in successfully and prudently handling
               well over $520 million dollars in federal funds each year.

               Based upon the few pre-audit survey findings that were not cleared up during the period
               of the survey and the time h m e between the survey and the draft report, the statements
               are not supported by the facts.
APPENDIX C - MICHIGAN COMMISSION RESPONSE




     Page 3
     Ms. Luise Jordan
     Draft Report of the Pre-Audit Survey of the Michigan Community Service Commission


      Page 1 "The Commission does not have adequate controls in place to evaluate and
             monitor subgrantees."

              The MCSC continues to improve and strengthen its subgrantee monitoring processes.
              Many of the suggestions proposed by the auditors have, in fact, been addressed and
              incorporated into our monitoring policies. The MCSC feels that monitoring of its
              subgrantees is one of its most important responsibilities and has increased staff size to
              ensure that program monitoring is of the highest quality and our greatest priority.

              The statement above is not supportable based upon the one remaining issue in the draft
              report regarding program monitoring. In addition, no where in the draft report are the
              changes to the processes and policies addressed. If in fact the revised policies, which
              address all the concerns of the monitoring issue, had been included in the draft report,
              the only issue identified for program monitoring would be addressed.

      Page 6 "Lack of documentation to support the review of certain information during the
             renewal process."

              All previous information collected on subgrantees, including progress reports and site
              visits, is used during the review process. The program officer and the Director of
              Programs are part of the review team and any areas of concern with any returning
              subgrantee are addressed as part of their continuous improvement plan. However, the
              MCSC did not in the past utilize a checklist during the review process. MCSC is in the
              process of creating a checklist that will document the review for audit purposes. It
              should be noted that the MCSC immediately addresses all concerns and issues that
              arise from the progress reports and or site visits. These are also well documented in
              grantee files and therefore, any issues with regard to subgrantees are normally handled
              prior to the new grant renewal period.

      Page 6 "Lack of assessment of subgrantee applicant's Financial Systems during the
             selection process."

              All applicants successfully completing the original screening processes are required, as
              part of their submission, to supply their most recent audit and include a completed
              Financial Management Survey prior to the selection of new grants. The Director of
              Finance and Administration reviews all documents to determine the financial capability
              of the subgrantee. This process has been in place for the last two grant years. The lack
              of a checklist that the auditors could see that showed the documents were reviewed
              prior to the grant award was, to our knowledge, the only issue. The documents listed
              above are included with the subgrantee files. As with all review documents, these will
              be included on the checklist for audit purposes. In addition, the MCSC does not make
              it a practice to require returning subgrantees to fill out this checklist every year.
APPENDIX C - MICHIGAN COMMISSION RESPONSE




     Page 4
     Ms. Luise Jordan
     Draft Report of the Pre-Audit Survey of the Michigan Community Service Commission


             As a returning grantee, we have been monitoring their financial systems during the
             previous grant year. As the majority of MCSC subgrantees are returning grantees,
             financial management checklists will only be included in a small percentage of the files.

     Page 7 "Lack of evidence of Financial Status Report review, including matching
            recalculation."

             "Fifteen instances where we were unable to determine whether the match was re-
             calculated by the commission; and"

             The MCSC does in fact review the match of each of its subgrantees. Prior to issuing
             payments to our subgrantees, a Cash Request Checklist (Attachment B) is filled out that
             verifies match amounts and the percentage of administration being charged to the grant.
             If it is determined that a subgrantee is not meeting their match, grantees are asked to
             submit a written response with a plan for bringing the match up the required level. The
             MCSC has been using this checklist for over two years now and it has become a very
             useful tool in verifying that our subgrantees meet their required match. In addition,
             MCSC utilizes the monthly expenditure form on the Web Based Reporting System
             (WBRS) to verify match compliance. Again, this was clearly explained to the auditors
             at our on-site exit interviews and in a written follow-up (See attachment A).

             "Several instance where FSRs submitted by subgrantees were not accurately
             prepared or completed."

             Based upon documentation received during the exit meeting, there were only two
             instances where the FSRs were possibly not accurate. In one instance, the total federal
             h n d s available for the University of Michigan did not match up with the two years of
             subgrants. It was explained to the auditor that this was a result of the program's status
             as a competitive funded Amencorps program and the result of carry over funds. The
             program would show the actual amount of Federal Funds available (IS' Year grant -
             unspent 1" year + Y dYear grant funds). Based upon this formula, our two years of
             grants may total $800,000, but if $100,000 was the amount of the carryover, the
             subgrantee could show $700,000 in total federal funds available. (400,000 - 100,000 +
             400,000 = $700,000 in Federal Funds available, the two grant years = $800,000). This
             was explained to the auditor on site, and is something that was out of the control of the
             MCSC during the cumulative period of subgrants fYom CNS.

              The second instance was i?om a small Learn & Serve grant from 1998 that did not total
              properly. The Commission has since changed its reporting systems and all FSRs are
              now keyed into a computerized spreadsheet by our department's federal accountants
              who check and compare the numbers reported. Any discrepancies are then worked out
              with the subgrantee prior to our submission of the aggregate FSR report.
APPENDIX C    - MICHIGAN COMMISSION RESPONSE



      Page 5
      Ms. Luise Jordan
      Draft Report of the Pre-Audit Survey of the Michigan Community Service Commission


              In addition, the finding stated, "We also determined that Commission personnel do not
              compare the FSRs to the subgrantees' accounting records or other supporting
              documentation during site visits."

              This statement is false. In fact, during the last two years the MCSC has utilized an
              impartial contractor to perform a complete fiscal site visit on all of its Amencorps
              subgrantees. This visit included a complete review and audit of one month's
              expenditures. The contractor reviewed all expenses to make sure that it was authorized
              and reported correctly. In addition, the contractor verified that all documentation tied
              correctly into other reports. For example, the contractor looked at all expenses and
              internal accounting records to verify that the monthly expenditure report was correct
              and also compared the reports to the most recent FSR completed. This information was
              reported to the auditors during the on-site visit. The subgrantee on-site fiscal audit
              program worked exceptionally well and the MCSC plans on expanding this process to
              all of its grant programs in the future.

      Page 7 "Late submission of Financial Status Reports."

              This has been, and will continue to be, one of the most difficult aspects of the CNS
              grant management process for commissions. The MCSC has been working very hard to
              help its subgrantees report on time. One of the tools that we have started to use is the
              cash ~ e ~ u ichecklist.
                              st        All payments to subgrantees are held pending receipt of any
              missing documentation. We will continue to look at new processes that will assist us in
              meeting the required FSR submission deadlines. Our last FSR submission for the
              AmeriCorps grant included 21 out of 22 FSR's (or 95%) submitted on time. The last
              FSR was submitted two weeks after the due date and the MCSC is working with the
              program to help them meet future deadlines.

      Page 8 "Inability to determine the timeliness of the receipt of FSRs."

               The MCSC has updated its policies to ensure that all documentation received kom
               subgrantees is date stamped upon receipt.

      Page 8 "The Commission did not maintain all required FSRs."

               Again, this is an inaccurate statement. The MCSC does in fact maintain copies of all
               FSRs submitted by its subgrantees. In fact, original and duplicate FSRs are maintained
               in two different locations- in the program files, and in the office of the Director of
               Finance and Administration. The finding identified three instances where FSRs were
               not maintained. The FSRs in question were found and copies were given to the auditors
               afler the exit meeting and prior to the auditors leaving the site. Based upon subsequent
               conversations with the auditors, it was determined that they did not have the FSRs. The
               MCSC offered to fax copies of the FSRs in question to the auditors as part of the follow
APPENDIX C    - MICHIGAN COMMISSION RESPONSE




     Page 6
     Ms. Luise Jordan
     Draft Report of the Pre-Audit Survey of the Michigan Community Service Commission

              up letters, but we were informed that it was unnecessary in that no matter what
              documentation was provided at that point, it would not change the fmding. The MCSC
              can supply any of the missing FSRs and we feel that this finding may have been caused,
              in part, by the short time came that the auditors were on site. The MCSC
              administrative assistant for Finance and Administration was able to produce the FSRs
              within a very short time frame after we were supplied the list of the missing
              documentation.

      Page 9 "The Commission could not provide the dollar amount of the match for the
             administrative grant."

              This item was never addressed in the exit meeting nor in subsequent conversations.
              The auditor called and asked for this information on the afternoon that the report was
              being forwarded to CNS's Inspector General. The Director of Finance and
              Administration supplied the last two years of match and informed the auditor that since
              the match was not reported on the FSRs, the actual numbers were available but not
              readily available. The auditor was informed that due to a change in accounting systems
              at the State of Michigan and the fact that accounting records from these periods had
              been sent to archives, it would take at least a week to order the files and obtain the
              amount of match funds for the periods in question. At no time did we indicate that the
              MCSC could or would not be able to produce the amount of match for the period.
              Since the report was going over to the Lnspector General's office that day, there was not
              enough time to obtain the required information. If this item had been addressed during
              the exit meeting, the MCSC would have had plenty of time to determine the amount of
              match during those years.

      Page 9 "The evaluating and monitoring system for the subgrantees needs to be improved
             at the Commission."

              This findine" maintained that the MCSC did not include certain information fiom site
              visit documentation, specifically names of the members reviewed, identification of
              member files where exceptions were identified, and the procedures followed to select
              the members reviewed. Because of the Freedom of Information Act and the privacy
              laws at the state and federal levels, the MCSC did not previously include member
              names in the site visit documentation. However, as a result of the Auditor General's
              audit of the Michigan's ArneriCorps program, we have changed our procedures to
              include the information listed above. In addition, we have developed a process for
              randomly selecting members for review to ensure that a representative sample of the
              program is examined. A copy of the new site visit procedures and instructions are
              included as Attachment C. These new procedures went into effect during the grant year
              of 1999-2000.
APPENDIX C    - MICHIGAN COMMISSION RESPONSE




     Page 7
     Ms. Luise Jordan
     Draft Report of the Pre-Audit Survey of the Michigan Community Service Commission


     Based on all of the above, the MCSC expects that several changes will be incorporated in the
     final report. If you have any questions on our response to the Draft Report of the Pre-Audit
     Survey of the Michigan Community Service Commission, please contact either of us at (517)
     335-4295.


     Sincerely,



      Kyle Caldwell, Executive Director     Garreth C. Gross, Director of Finance and Admin.
      Michigan Community Service Commission Michigan Community Service Commission


      Attachments (3)
      cc: Deb LaPine, MDCD
          Larry Misiewicz, MDCD
APPENDIX D         - CORPORA TION RESPONSE


                                                          CORPORATION

                                                          FOR NATIONAL
            MEMORANDUM


            TO:                 Luise S. Jordan

            THRU:

            FROM:
                                Bruce H. Cline

            DATE:               May 15,2000

             SUBJECT:           Response to the Draft Audit Report 00-25 Pre-Audit Survey of the
                                Michigan Community Service Commission


             We have reviewed the draft report on your pre-audit survey of the Michigan Commission.
             Given the nature of the report, this response serves as our proposed management
             decision. We note that your preliminary assessment recommend a full-scope financial
             audit at the Michigan Commission for 1995 through the current program year. The draft
             audit report includes a recommendation to the Corporation. We are providing the
             following response to that recommendation. The Inspector General recommended:

                      "Additionally, we (the Inspector General) recommend that the Corporation follow
                      up with the Michigan Commission to determine that appropriate corrective
                      actions are put into place to address the conditions reported herein, and that the
                      Corporation consider these conditions in its oversight and monitoring of the
                      Michigan Commission."

              Some of the conditions cited in the "results in brief' section of the report include
              concerns related to the lack of assessment of subgrantee applicants' financial systems
              during the selection process. It was also noted that the Commission does not have
              adequate controls in place for the fiscal administration of grants or similarly, there are
              inadequate controls to evaluate and monitor subgrantees.

              Given our limited program administration resources, we developed a plan to assess State
              Commission administration functions. Over a three-year period, we will be reviewing
              each of the state commissions. As part of our follow-up with Michigan, we will
              determine whether the Commission has put appropriate corrective actions in place for
              conditions noted in the pre-audit survey that your office has issued.

              In addition to this scheduled review, we will also request that the Michigan Commission
              provide semi-annual reports on their actions to correct conditions cited in the OIG pre-
              audit survey.




     NATIONAL SERVICE: GElllNG THINGS DONE                         1201 New York Avenue, N.W. Washington, D.C. 20525
               .
     ~ m o n ~ c o pImmmufSenaAmeriur   NoIiondSeniorSemirecmp     Wepbone: 202-66dbYII) website: w.nationals~ce.org
APPENDIX E     - UKW'S EVALUA TION OF MICHIGAN'S RESPONSE



 UK    Urbach Kahn G.Werlin PC
 6NV   CERTIFIED PUBLIC ACCOUNTANTS




         Inspector General
         Corporation for National Service

         RE:    Michigan Community Service Commission's Response t o Pre-Audit Survey
                Report

         We have reviewed the Michigan Commission's response t o the Pre-Audit Survey
         Report. This letter summarizes their response and our evaluation to their comments.

         UKW strongly disagrees with t w o comments made by the Commission in its
         response. First, UKW did discuss all findings and missing documentation issues
         during our exit conference with Commission management on January 21, 2000. We
         also forwarded our finding write-ups t o the Commission on April 2, 2000 which
         restated documentation and other problems discussed at the exit conference. While
         the Commission responded on April 11. 2000, they did not provide additional
         documentation t o resolve these issues.

         Secondly, w e were able t o complete our fieldwork in an efficient manner based on a
         significant amount of procedures performed prior t o the on-site fieldwork. UKW
         requested the Commission complete a grant roster and internal control questionnaire
         prior t o our arrival. This allowed UKW to select our sample and allowed the
         Commission ample time t o accumulate the necessary documentation prior t o our
         team's arrival at the Commission.

         The time spent by UKW on site at the Commission in no way compromised the
         quality of our work. In addition, the OIG subsequently reviewed and approved our
         workpapers.

         Below please find our responses t o certain comments made by the Commission,
         detailed in Appendix C.

         Page 2,   1st paragraph: The deficiencies identified i n the fiscal administration of
                                  grants and controls surrounding the evaluation and
                                  monitoring of subgrantees were discussed with the
                                  Commission during our exit conference as well as i n our
                                  April 2, 2000 e-mail transmission of finding write-ups t o
                                  the Commission.

         Page 2,   3rd paragraph: UKW disagrees with the Commission statement that this
                                  issue was not discussed during our on-site review.
                                  UKW's exit conference agenda stated ..."There is no
                                  documentation of subgrantee FSR review by the
                                  Commission, including - documentation of matching
                                  recalculation or review subgrantee
                                                             -         level... I n addition,
                                  subgrantee FSRs are not tied t o the subgrantee financial



                      1030 Fifrccnrh Srrcct NW,Washington. DC 20005 (202) 25'62020 FAX (202) 223-8488
                                      An lndcpndcnr Mrmbrr dUrbrh H x k n Y m g lntrmrtior~l
APPENDIX E   - UK W'S EVALUA TION OF MICHIGAN'S RESPONSE




                                 systems during site visits". UKW also provided Michigan
                                 Commission personnel a copy of our exception summary
                                 prior t o our departure. Our finding write-up also stated
                                 "Controls over the administration of grants needs t o be
                                 improved     at   the    Michigan   Community     Service
                                 Commission.

                                 I n the Commission's April 11, 2000 letter t o UKW, the
                                 Commission asserted that they provided us with copies
                                 of all missing FSRs prior t o our departure. However, UKW
                                 never received these FSRs. As a result, UKW does not
                                 believe any changes t o the report are warranted at this
                                 time.

       Page 3,   1st paragraph: As a result of the deficiencies identified during our
                                review, we believe the statement i n the results i n brief
                                section is warranted.

       Page 3.   3rd paragraph: No response is needed by UKW.

       Page 3,   4 t h paragraph: While the Commission asserted that personnel reviewed
                                  the financial capabilities of each applicant during the past
                                  t w o grant years, no documentation exists t o support that
                                  this review was actually performed. I n response t o our
                                  finding, the Commission has added procedures t o their
                                  selection checklist t o be used i n future program years.
                                  However, i n the Commission's response, they stated that
                                  the MCSC does not make i t a practice t o require returning
                                  subgrantees t o fill out this checklist every year. Since
                                  financial systems can change from year t o year, UKW
                                  believes Commissions should evaluate the financial
                                  systems for all successful subgrantees, including renewal
                                  applicants. In addition, UKW was engaged t o review and
                                  report on the procedures i n place during the 1995
                                  through 1998 program years, and only extremely limited
                                  testing was performed on the 1 9 9 9 program year.
                                  Therefore, UKW does not believe any changes should be
                                  made t o the report at this time.

       Page 4,   1st comment:    The checklist mentioned in the response was only i n
                                 effect for the past t w o years (1998 and 1999). Our
                                 review covered the 1995 through 1999 years. UKW will
                                 revise the report t o state that prior t o 1998, the
                                 Commission did not document its recalculation of
                                 matching requirements.
A P P E M E - UKW's EVAL UA TION OF MICHIGAN'S RESPONSE




        Page 4,   2nd comment: No response is needed by UKW.

        Page 5,   1st paragraph: As discussed above our review covered the 1995 through
                                 1998 program years. The independent contractor was
                                 only engaged during the 1998 and 1999 program years.

        Page 5,   2nd paragraph: No response is needed by UKW.

        Page 5,   3rd paragraph: No response is needed by UKW.

        Page 5,   4 t h paragraph: UKW did not receive the FSRs i n question while we were
                                   on-site. On April 2, 2000, UKW transmitted an e-mail t o
                                   the Director of Finance summarizing our findings, which
                                   included the issue of missing FSRs. The Commission did
                                   not include these FSRs in their April 11, 2 0 0 0 letter t o
                                   UKW. Therefore, UKW does not believe any changes are
                                   warranted at this time.

        Page 6,   1st comment:    UKW originally requested this information prior t o our
                                  fieldwork, when we requested that the Commission
                                  complete the grant roster. Subsequent t o the completion
                                  of our fieldwork, w e requested the information for a
                                  second time and were told that this information was not
                                  readily available and would take a while to accumulate
                                  the necessary information as stated i n our report.
                                  Therefore, we do not believe any changes t o the report
                                  are warranted at this time.

        Page 6,   2nd comment:     No response is needed by UKW.
